TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    The Internal Revenue Service Provided
                     Interim Guidance and Plans to Take
                   Additional Actions to Implement New Tax
                          Shelter Penalty Provisions



                                            March 2006

                              Reference Number: 2006-30-058




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                              DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                              March 30, 2006


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Internal Revenue Service Provided Interim
                             Guidance and Plans to Take Additional Actions to Implement New Tax
                             Shelter Penalty Provisions (Audit # 200530023)

 This report presents the results of our review of Provision 811 (Penalty for Failing to Disclose
 Reportable Transactions) of the American Jobs Creation Act of 2004 (AJCA).1 The overall
 objective of this review was to determine whether the Internal Revenue Service (IRS) effectively
 completed the planned actions to implement Provision 811 of the AJCA regarding the penalty for
 failing to disclose reportable transactions.

 Synopsis
 Tax shelters have become a considerable problem for the IRS and have added significantly to the
 tax gap.2 At the Federal level, the potential tax loss from abusive tax shelters is estimated to be
 $129 billion.3 Because of the magnitude of this problem, Congress and the IRS have been
 searching for ways to discourage abusive tax shelter transactions.
 On October 22, 2004, President Bush signed the AJCA. This new legislation contains many
 provisions that will affect abusive tax shelter promoters, advisors, and investors. Among the
 many provisions of this Act, Provision 811 imposed a new, independent penalty on taxpayers



 1
   Pub. L. No. 108-357, 118 Stat. 1418 (2004).
 2
   Internal Revenue Service: Challenges Remain in Combating Abusive Tax Shelters (GAO-04-104T, dated
 October 2003).
 3
   Tax Shelters: Services Provided by External Auditors (GAO-05-171, dated February 2005).
                    The Internal Revenue Service Provided Interim Guidance and
                   Plans to Take Additional Actions to Implement New Tax Shelter
                                         Penalty Provisions


who fail to disclose a reportable transaction.4 Provision 811 provides meaningful penalties for
noncompliance that were previously lacking in the IRS’ initiative to discourage abusive tax
shelters. It was intended that the imposition of this penalty would provide an additional
incentive for taxpayers to comply with tax shelter disclosure provisions.5
The penalty for failing to disclose a reportable transaction (other than a listed transaction) is
$10,000 in the case of an individual and $50,000 in any other case. The amount is increased to
$100,000 and $200,000, respectively, if the failure is with respect to a listed transaction.
Because of the significance of Provision 811 to tax administration, and because the penalties
could significantly affect taxpayers, it was important that the IRS implement this Provision
timely and accurately.
In summary, the IRS developed and provided interim guidance and established controls related
to the implementation of Provision 811. The IRS provided much of the required guidance in
multiple news releases, notices, revenue procedures, and form revisions from January 2005
through January 2006 and is anticipating issuing further guidance and final forms and
instructions later in 2006. The date of enactment of the AJCA gave the IRS limited time to issue
complete guidance to taxpayers.
Although the IRS developed and provided interim guidance and established controls related to
the implementation of Provision 811, many additional actions are still needed, with some
scheduled for 2 years after enactment of the Act. For example, the IRS is studying the feasibility
of identifying taxpayers subject to the penalty during the “filing” phase of operations through
modifications to Master File6 systems and campus7 return processing procedures and is working
towards securing data through e-file.8 In addition, the IRS is writing a draft of new regulations
under Internal Revenue Code § 6707A9 to define various terms that will directly affect the
penalty application and is making revisions to forms and related instructions.
The IRS revised the instructions for many business tax returns to include information on
reportable transactions, applicable penalty information, and the related forms corporations may
have to file. However, as of January 31, 2006, revisions to the instructions for U.S. Life


4
  Reportable transactions include (1) listed transactions (identified in IRS published guidance), (2) confidential
transactions, (3) transactions with contractual protection, (4) loss transactions, (5) transactions with a significant
book-tax difference, and (6) transactions with a brief asset holding period. See Appendix IV.
5
  This information is from House Committee Report H.R. Rep. No. 108-548, Part I.
6
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
7
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
8
  The electronic filing of tax information with personal computers and tax preparation software.
9
  AJCA Provision 811 resulted in adding § 6707A, Penalty for Failure to Include Reportable Transaction
Information with Return, to the Internal Revenue Code. 26 U.S.C. § 6707A (2004).
                                                                                                                         2
                The Internal Revenue Service Provided Interim Guidance and
               Plans to Take Additional Actions to Implement New Tax Shelter
                                     Penalty Provisions


Insurance Company Income Tax Return (Form 1120-L) and U.S. Property and Casualty
Insurance Company Income Tax Return (Form 1120-PC) were in draft form and needed to be
finalized and posted to the IRS web site.

Recommendations
We made no recommendations to this report. However, key IRS management officials reviewed
it prior to issuance.
Copies of this report are also being sent to the IRS managers affected by the report finding.
Please contact me at (202) 622-6510 if you have questions or Curtis Hagan, Assistant Inspector
General for Audit (Small Business and Corporate Programs,), at (202) 622-3837.




                                                                                                 3
                       The Internal Revenue Service Provided Interim Guidance and
                      Plans to Take Additional Actions to Implement New Tax Shelter
                                            Penalty Provisions




                                             Table of Contents

Background ............................................................................................................Page 1

Results of Review .................................................................................................Page 2
          The Internal Revenue Service Provided Interim Guidance and
          Established Controls Related to Implementation of Provision 811 ................Page 2

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ..........................Page 5
          Appendix II – Major Contributors to This Report ..........................................Page 7
          Appendix III – Report Distribution List .........................................................Page 8
          Appendix IV – Description of Reportable Transactions.................................Page 9
                     The Internal Revenue Service Provided Interim Guidance and
                    Plans to Take Additional Actions to Implement New Tax Shelter
                                          Penalty Provisions




                                               Background

On October 22, 2004, President Bush signed the American Jobs Creation Act of 2004 (AJCA).1
Among the many provisions of this Act, Provision 811 (Penalty for Failing to Disclose
Reportable Transactions) imposed a new, independent penalty on taxpayers who fail to disclose a
reportable transaction.2 It was intended that the imposition of this penalty would provide an
additional incentive for taxpayers to comply with tax shelter disclosure provisions.3
Taxpayers must disclose reportable transactions on a Reportable Transaction Disclosure
Statement (Form 8886) and must also send a copy of the form to the Internal Revenue Service
(IRS) Office of Tax Shelter Analysis. The penalty for failing to disclose a reportable transaction
(other than a listed transaction) is $10,000 in the case of an individual and $50,000 in any other
case. The amount is increased to $100,000 and $200,000, respectively, if the failure is with
respect to a listed transaction.
The IRS is required to submit an annual report to Congress summarizing the total number and
aggregate amount of penalties imposed and rescinded under Internal Revenue Code (I.R.C.)
§ 6707A.4 The Provision is effective for returns and statements due after October 22, 2004, and
that were not filed before such date.
The Small Business/Self-Employed Division was the operating division assigned the primary
responsibility for implementation of Provision 811. The Small Business/Self-Employed
Division’s actions to implement Provision 811 involved multiple action items, including
providing training and guidance to IRS employees and taxpayers, coordinating extensively with
various IRS functions, creating and revising forms and publications, and generally taking the
necessary actions to effectively implement this Provision.
This review was performed at the IRS office in Holtsville, New York, covering the Small
Business/Self-Employed Division’s responsibility in implementing Provision 811 during the
period July 2005 through January 2006. The audit was conducted in accordance with
Government Auditing Standards. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.



1
  Pub. L. No. 108-357, 118 Stat. 1418 (2004).
2
  Reportable transactions include (1) listed transactions (identified in IRS published guidance), (2) confidential
transactions, (3) transactions with contractual protection, (4) loss transactions, (5) transactions with a significant
book-tax difference, and (6) transactions with a brief asset holding period. See Appendix IV.
3
  This information is from the House Committee Report H.R. Rep. No. 108-548, Part 1.
4
  26 U.S.C. § 6707A (2004).
                                                                                                                 Page 1
                   The Internal Revenue Service Provided Interim Guidance and
                  Plans to Take Additional Actions to Implement New Tax Shelter
                                        Penalty Provisions



                                     Results of Review

The Internal Revenue Service Provided Interim Guidance and
Established Controls Related to Implementation of Provision 811
The timing of enactment of the legislation involving Provision 811 gave the IRS limited time to
issue complete guidance to taxpayers that would be affected by the imposition of this penalty.
After enactment of Provision 811, the IRS designated guidance for this Provision as a
top-priority item and made a significant staffing commitment, including having officials at the
highest levels begin a coordinated effort to identify and prioritize issues needing guidance under
the new Provision.
The IRS focused on addressing those priority issues and targeted the issuance of two priority
notices: the first notice primarily provided interim guidance related to the new failure to disclose
reportable transactions penalty, and the second notice primarily provided guidance to persons
who may be required to disclose those penalties on reports filed with the Securities and
Exchange Commission.
On January 19, 2005, approximately 3 months after enactment of Provision 811, the IRS issued
Notice 2005-11 alerting taxpayers to new I.R.C. § 6707A.5 The Notice outlined the existing
regulatory disclosure rules and the new failure to disclose penalty; it also provided interim
guidance regarding the imposition and rescission of penalties to taxpayers who are required to
disclose reportable transactions. This Notice was made available to major national and tax
media and was included on the IRS web site (IRS.gov).
On August 15, 2005, the IRS issued Revenue Procedure 2005-51 providing guidance to persons
who may be required to pay penalties under I.R.C. § 6707A and who may be required under
I.R.C. § 6707A(e) to disclose those penalties on reports filed with the Securities and Exchange
Commission. This Revenue Procedure described the report on which the disclosures must be
made, the information that must be disclosed, and the deadlines by which persons must make the
disclosures to avoid additional penalties under I.R.C. § 6707A(e).
On October 13, 2005, the IRS posted a preliminary draft of Form 8886 to the Draft Forms web
site. The first redesign of Form 8886 and related instructions was completed in January 2006,
and additional revisions are expected to be completed by December 2006.
On January 6, 2006, the IRS issued Notice 2006-6, notifying taxpayers and material advisors of
the removal of the book-tax difference category of reportable transactions.6 Taxpayers will no

5
  AJCA Provision 811 resulted in adding § 6707A, Penalty for Failure to Include Reportable Transaction
Information with Return, to the I.R.C.
6
  See Appendix IV for an explanation of this reportable transaction.
                                                                                                         Page 2
                   The Internal Revenue Service Provided Interim Guidance and
                  Plans to Take Additional Actions to Implement New Tax Shelter
                                        Penalty Provisions



longer have to disclose transactions with a significant book-tax difference on or after the date of
this Notice.
The IRS established a joint task group to coordinate the activities required to implement
Provision 811. In addition to Large and Mid-Size Business Division employees, the group is
comprised of Small Business/Self-Employed Division and Tax Exempt and Government Entities
Division employees. Cross-divisional discussions are currently underway to identify and correct
any gaps in the respective implementation action plans, including the identification of any other
actions that may be needed.
The Large and Mid-Size Business Division created for its employees an AJCA webpage on its
web site that contained links to notices, news releases, fact sheets, and other existing technical
guidance relating to the Act.
In addition, the IRS has the Legislative Implementation Tracking System, which is an IRS
Intranet-based planning and monitoring system for implementation of tax legislation. It is
designed to enable the responsible offices to monitor legislation that has a significant impact on
the IRS. The web site has the required actions with estimated due dates and indicates the
functions responsible for taking the necessary actions to implement any provision. Also, the web
site shows which action items are on time or running behind schedule.

Additional actions are needed to fully implement Provision 811
Although the IRS developed and provided interim guidance and established controls related to
the implementation of Provision 811, many additional actions are still needed, with some
scheduled for 2 years after enactment of the Act.
The determination of whether a person entered into a reportable transaction and whether the
transaction was listed requires an audit of the taxpayer. Inasmuch as I.R.C. § 6707A is effective
for returns due and filed after October 22, 2004, no penalties can be assessed until the IRS has
had time to conduct audits of taxpayers’ returns.
To expedite the identification of taxpayers subject to penalties under I.R.C. § 6707A, the Office
of Tax Shelter Analysis is studying the feasibility of expanding this capability to include
compliance activities performed during the “filing” phase of operations through (1) Master File7
systems enhancements and (2) modifications to campus8 return processing procedures. Some of
the Master File enhancements being considered include (1) installing Computer Condition




7
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
8
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                         Page 3
                   The Internal Revenue Service Provided Interim Guidance and
                  Plans to Take Additional Actions to Implement New Tax Shelter
                                        Penalty Provisions



Codes9 to establish the fact of filing, (2) transcribing the Form 8886, and (3) establishing an
Integrated Data Retrieval System10 Command Code to extract transcribed data. The targeted
completion date for these Master File enhancements is December 2006.
The Office of Tax Shelter Analysis is working towards securing data through e-file;11 however,
this will continue into the 2007 filing year and is linked to the rollout of e-file capability for all
returns by all operating divisions.
Also, a draft of new regulations under I.R.C. § 6707A is in the process of being written to define
various terms that will directly affect the penalty application. The target date for completion is
June 30, 2006. Publication of the regulations by the target date may be affected by the IRS’
progress on other projects implementing the AJCA.
The IRS revised the instructions for many business tax returns to include information on
reportable transactions, applicable penalty information, and the related forms corporations may
have to file. As of January 31, 2006, revisions to the instructions for U.S. Life Insurance
Company Income Tax Return (Form 1120-L) and U.S. Property and Casualty Insurance
Company Income Tax Return (Form 1120-PC) were in draft form and needed to be finalized and
posted to the IRS web site. Revisions to Form 8886 and related instructions are scheduled to be
completed by December 2006.




9
  Computer Condition Codes are assigned by tax examiners or are computer generated during the processing of the
return. They identify a special condition or computation for the computer. Computer Condition Codes post to the
Master File.
10
   IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
11
   The electronic filing of tax information with personal computers and tax preparation software.
                                                                                                        Page 4
                   The Internal Revenue Service Provided Interim Guidance and
                  Plans to Take Additional Actions to Implement New Tax Shelter
                                        Penalty Provisions



                                                                                              Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Internal Revenue Service
(IRS) effectively completed the planned actions to implement Provision 811 of the American
Jobs Creation Act of 2004 (AJCA)1 regarding the penalty for failing to disclose reportable
transactions. To accomplish this objective, we:
I.      Evaluated whether the IRS had identified and scheduled the actions necessary to
        implement Provision 811.
        A. Reviewed tax legislation created by the AJCA regarding the penalty for failing to
           disclose reportable transactions.
            1. Identified the new provisions of the Act related to the penalty for failing to
               disclose reportable transactions and related requirements and limitations.
            2. Reviewed House Committee Report H.R. Rep. No. 108-548, Part 1 and
               Conference Committee Report H.R. Conf. Rep. No. 108-755.
            3. Reviewed various external documents that address the AJCA.
        B. Determined what actions have been taken by the IRS to implement AJCA
           Provision 811.
            1. Reviewed and monitored the Legislative Implementation Tracking System.2
            2. Contacted the Small Business/Self-Employed Division to identify the steps
               planned and taken to identify actions still needed from each function to fully
               implement this Provision.
            3. Determined whether the IRS timely developed and revised forms, schedules,
               instructions, or publications, when necessary.
            4. Determined whether any Internal Revenue Manual instructions related to the
               implementation of this Provision may be needed.
            5. Monitored and reviewed information on the Small Business/Self-Employed
               Division and Large and Mid-Size Business Division web sites to identify


1
 Pub. L. No. 108-357, 118 Stat. 1418 (2004).
2
 The Legislative Implementation Tracking System is an IRS Intranet-based planning and monitoring system for
implementation of tax legislation.
                                                                                                      Page 5
                    The Internal Revenue Service Provided Interim Guidance and
                   Plans to Take Additional Actions to Implement New Tax Shelter
                                         Penalty Provisions



                  additional actions not included on the Legislative Implementation Tracking
                  System.
             6. Identified potential indications of the IRS’ inability to meet completion dates and
                obtained explanations with regard to any completion dates that may appear
                questionable in successfully implementing this Provision in Fiscal Year 2005.
             7. Determined whether interim measures are being considered in instances in which
                there are problems in meeting due dates or when dates have been revised to a later
                date.
             8. Researched the Request for Information Services Tracking and Reporting
                System.3 We discussed with responsible management officials whether the
                Request for Information Services program changes and programming instructions
                were implemented with regard to notice changes for Reference Number4 648.
             9. Determined whether the IRS can identify cases that should be subject to the
                application of this penalty.
             10. Determined whether the IRS has developed tracking systems and reports for
                 House and Senate Committees on penalties imposed and rescinded by the IRS
                 Commissioner.
II.      Determined whether policies and procedures were established to ensure the IRS timely
         provided the necessary guidance to business taxpayers and practitioners to enable
         taxpayers to successfully comply with this Provision.
         A. Discussed with IRS management whether a process or procedure has been developed
            to ensure the necessary guidance and information were provided to taxpayers and/or
            practitioners.
         B. Reviewed the Notice 2005-11, New Penalty Section 6707A and Rescission Authority.
         C. Reviewed information provided by the IRS to enable taxpayers to successfully
            comply with this Provision.



3
  The Request for Information Services Tracking and Reporting System supports the generation and tracking of
Requests for Information Services from initiation to completion. It contains multiple search functions as well as
standard and dynamic reporting capabilities.
4
  Reference numbers are posted to taxpayer Master File accounts in making penalty assessments to provide an audit
trail that reflects the related penalty code section and the dollar amount. The reference number dictates the language
on the notice and demand for payment that explains why the IRS assessed the amount showing due. It also provides
information on how the taxpayer may contest the liability. The Master File is the IRS database that stores various
types of taxpayer account information. This database includes individual, business, and employee plans and exempt
organizations data.
                                                                                                             Page 6
                The Internal Revenue Service Provided Interim Guidance and
               Plans to Take Additional Actions to Implement New Tax Shelter
                                     Penalty Provisions



                                                                              Appendix II

                 Major Contributors to This Report

Curtis W. Hagan, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Kyle R. Andersen, Director
L. Jeff Anderson, Audit Manager
Stephen A. Wybaillie, Lead Auditor
Margaret F. Filippelli, Senior Auditor
Philip W. Peyser, Senior Auditor




                                                                                       Page 7
               The Internal Revenue Service Provided Interim Guidance and
              Plans to Take Additional Actions to Implement New Tax Shelter
                                    Penalty Provisions



                                                                  Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Wage and Investment Division SE:W
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                        Page 8
                      The Internal Revenue Service Provided Interim Guidance and
                     Plans to Take Additional Actions to Implement New Tax Shelter
                                           Penalty Provisions



                                                                                      Appendix IV

                 Description of Reportable Transactions

The term transaction includes all of the factual elements relevant to the expected tax treatment of
any investment, entity, plan, or arrangement and includes any series of steps carried out as a part
of a plan. There are six categories of reportable transactions:
Listed transaction. A transaction that is the same as or substantially similar to one of the types
of transactions that the Internal Revenue Service has determined to be a tax avoidance
transaction and identified by notice, regulation, or other form of published guidance as a listed
transaction.
Confidential transaction. A transaction that is offered to a taxpayer under conditions of
confidentiality and for which the taxpayer has paid an advisor a minimum fee. The advisor
places a limitation on disclosure by the taxpayer of the tax treatment or tax structure of the
transaction to protect the confidentiality of that advisor’s tax strategies.
Transaction with contractual protection. A transaction for which the taxpayer or a related party
has the right to a full or partial refund of fees if all or part of the intended tax consequences from
the transaction are not sustained.
Loss transaction. Generally, any transaction resulting in the taxpayer claiming a loss of at least
(A) $10 million in any single taxable year or $20 million in any combination of taxable years for
corporations; (B) $10 million in any single taxable year or $20 million in any combination of
taxable years for partnerships that have only corporations as partners, or $2 million in any single
taxable year or $4 million in any combination of taxable years for all other partnerships,
regardless of whether any losses flow through to 1 or more partners; (C) $2 million in any single
taxable year or $4 million in any combination of taxable years for individuals, S corporations,1 or
trusts; or (D) $50,000 in any single taxable year for individuals or trusts claiming a foreign
currency.
Transaction with a significant book-tax difference. Generally, a transaction in which the amount
for tax purposes of any item or items of income, gain, expense, or loss from the transaction
differs by more than $10 million on a gross basis from the amount of the item or items for book
purposes in any taxable year.
Transaction involving a brief asset holding period. Any transaction resulting in the taxpayer
claiming a tax credit exceeding $250,000 if the underlying asset giving rise to the credit is held
by the taxpayer for 45 or fewer days.

1
    S corporations file a U.S. Income Tax Return for an S Corporation (Form 1120S).
                                                                                              Page 9
